POSTAL REGULATORY COMMISSION
  OFFICE OF INSPECTOR GENERAL




  SEMIANNUAL REPORT TO CONGRESS

    April 1, 2012 through September 30, 2012
                                 TABLE OF CONTENTS



                                                                                                PAGE

Introduction........................................................................................ 2

Activities of the Office of Inspector General .................................... 3

Inspector General Act Reports .......................................................... 5

Contact Information ........................................................................... 8
INTRODUCTION
   THE POSTAL REGULATORY COMMISSION
       The Postal Regulatory Commission (PRC) is an independent federal agency
       established (as the Postal Rate Commission) by the Postal Reorganization Act of
       1970. From its establishment through the enactment of the Postal Accountability
       and Enhancement Act (PAEA) of 2006, the Commission primarily received
       United States Postal Service proposals for domestic mail rates and classifications,
       presided over litigation regarding those proposals, and recommended rates and
       classifications to the Board of Governors of the United States Postal Service.
       PAEA, which was enacted on December 20, 2006, re-designated the Commission,
       expanded its jurisdiction to include international mail and service standards, and
       charged the Commission with implementing a new system of postal rate
       regulation.

       The PRC consists of five Commissioners who are appointed for six-year terms by
       the President, with the advice and consent of the Senate. No more than three of
       the Commissioners can be members of the same political party. The President
       designates one of the Commissioners to serve as Chairman, and the
       Commissioners, by majority vote, select one Commissioner to serve as Vice
       Chairman.

       During the reporting period, the PRC issued its analysis of the Postal Service’s
       Mail Processing Network Rationalization initiative to close or consolidate 229
       processing plants. Also during the reporting period, the PRC authorized a three-
       year negotiated service agreement between the Postal Service and Valassis Direct
       Mail that provides discounts for new saturation mail volume. The PRC also
       issued an Advisory Opinion on the Postal Service’s Post Office Structure Plan, an
       initiative to match post office retail hours with workload. Finally, the PRC issued
       an Advance Notice of Proposed Rulemaking asking the public for comments and
       suggestions on possible improvements to its rules for considering Postal Service
       requests for Advisory Opinions related to significant changes in service.

       On May 1, 2012, Commissioner Tony Hammond was sworn in for the third time
       as a PRC Commissioner and joins Chairman Ruth Goldway, Vice Chairman
       Nanci Langley and Commissioners Mark Acton and Robert Taub.

   THE OFFICE OF INSPECTOR GENERAL
        The Commission established the Office of Inspector General (OIG) on June 15,
        2007 and hired the first Inspector General on June 23, 2007. During the
        reporting period, OIG had three full-time employees—the Inspector General, a
        senior auditor and an administrative assistant. OIG was assisted in the conduct of
        its audits and inspections during the reporting period by auditors on detail from


                                        2
        the Postal Service Office of Inspector General.


ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL
   AUDITS AND EVALUATIONS
        Under the Inspector General Act of 1978 as amended (IG Act), the Inspector
        General provides policy direction and conducts, supervises and coordinates audits
        relating to programs and operations of the Postal Regulatory Commission.

        During the reporting period, OIG completed a joint audit with the U. S. Postal
        Service Office of Inspector General which is summarized below:

        FINAL AUDIT REPORT: COST OF APPEALS FOR CLOSING POSTAL SERVICE-
        OPERATED RETAIL FACILITIES

        OIG conducted a joint audit with the United States Postal Service’s Office of
        Inspector General to review the Postal Service’s and PRC’s costs for handling
        appeals of retail facility closures. The review estimated that the Postal Service’s
        average costs and staff hours required to process an appeal were about $1,365 and
        15 hours, respectively. The review also estimated PRC’s costs and staff hours to
        range from $1,806 to $2,496 and from 19 to 29 hours, respectively.

        ONGOING AUDITS AND EVALUATIONS

        Two projects were ongoing at the close of the reporting period: (1) an audit of
        PRC purchase card usage to determine whether PRC’s purchases complied with
        policies, were supported, and were made for business purposes; (2) an inspection
        of PRC’s certification of invoice practices to assess whether PRC officials
        properly certified invoices to ensure goods and services are received prior to
        paying invoices.

   INVESTIGATIVE ACTIVITIES

        Under the IG Act, OIG receives and investigates allegations of fraud, waste,
        abuse and misconduct within the PRC’s programs and operations. OIG
        investigations can give rise to administrative, civil and criminal penalties.

        In order to facilitate reporting of allegations, OIG maintains a hotline (see
        “Contacting the Office of Inspector General,” Page 8). During the reporting
        period, OIG received hotline contacts via postal mail, electronic mail and
        telephone. Many were complaints regarding the United States Postal Service,
        which OIG forwarded for action.




                                         3
    OIG did not refer any matters for prosecution during the reporting period.

OTHER ACTIVITIES
    REGULATORY REVIEW

    Under Section 4(a)(2) of the IG Act, OIG reviews drafts of proposed Commission
    rules and regulations. OIG was not provided with any draft policies to review
    during the reporting period.

    LIAISON ACTIVITIES

    The Inspector General is a member of the Council of Inspectors General on
    Integrity and Efficiency (CIGIE), which was established on October 14, 2008,
    pursuant to the Inspector General Reform Act of 2008. During the reporting
    period, the Inspector General attended monthly meetings of CIGIE as well as
    meetings of CIGIE’s Legislation Committee.

    PEER REVIEW

    OIG received its first peer review of its audit operation, which was completed by
    the Federal Trade Commission Office of Inspector General on March 26, 2012.
    OIG received a rating of Pass, which is the highest peer-review rating, signifying
    that OIG’s system of quality control was suitably designed to provide reasonable
    assurance of performing and reporting in conformity with applicable professional
    standards. A copy of the PRC system review report is available on the OIG
    website

    OIG is scheduled to conduct a peer review of Federal Maritime Commission’s
    audit operation for the period ending September 30, 2012.




                                     4
                INSPECTOR GENERAL ACT REPORTS

Section 5(a) of the IG Act requires that the following information be included in semiannual
reports.




   REFERENCE                       REPORTING REQUIREMENT                             PAGE


   Section 5(a)(1)   Significant problems, abuses or deficiencies identified          None

   Section 5(a)(2)   Recommendations for corrective action                            None

   Section 5(a)(3)   Open recommendations from previous semiannual reports            None

   Section 5(a)(4)   Matters referred to prosecutors, disposition                     None

   Section 5(a)(5)   Reports of information or assistance unreasonably withheld       None

   Section 5(a)(6)   Listing by subject of audit reports issued                      Page 3

   Section 5(a)(7)   Summary of particularly significant reports                     Page 3

   Section 5(a)(8)   Statistical table—questioned costs                              Table 1

   Section 5(a)(9)   Statistical table—recommendations that funds be put to          Table II
                     better use

  Section 5(a)(10) Audit reports from prior reporting periods for which no            None
                   management decision had been made

  Section 5(a)(11) Significant revised management decisions                           None

  Section 5(a)(12) Significant management decisions with which the IG is in           None
                   disagreement

  Section 5(a)(13) Information under section 05(b) of the FFMIA                       None

  Section 5(a)(14) Peer Review Activity                                              Page 4




                                                5
                                         Table 1

            AUDIT REPORTS WITH QUESTIONED COSTS


                                  Number        Number
                                    of            of          Questioned   Unsupported
                                  Reports   Recommendations     Costs         Costs

A.   For which no management
     decision has been made by       0             0              0             0
     the commencement of the
     reporting period.

                                     0             0              0             0
B.   Which were issued during
     the reporting period.


                Subtotals (A+B)      0             0              0             0


C.   For which a management
     decision was made during        0             0              0             0
     the reporting period.


D.   For which no management
     decision has been made by
                                     0             0              0             0
     the end of the reporting
     period.


E.   For which no management
     decision was made within        0             0              0             0
     six months of issuance.




                                             6
                                          Table II

       AUDIT REPORTS WITH RECOMMENDATIONS THAT
              FUNDS BE PUT TO BETTER USE


                                            Number        Number
                                              of            of          Dollar Value
                                            Reports   Recommendations

A.   For which no management decision
     has been made by the commencement           0           0               0
     of the reporting period.


B.   Which were issued during the
                                                 0           0               0
     reporting period.


                        Subtotals (A+B)          0           0               0


C.   For which a management decision
                                                                             0
     was made during the reporting               0           0
     period.


D.   For which no management decision
     has been made by the end of the             0           0               0
     reporting period.


E.   For which no management decision
     was made within six months of               0           0               0
     issuance.




                                             7
                     CONTACTING THE
               OFFICE OF INSPECTOR GENERAL


In our mission to detect and prevent waste, fraud and abuse and to
promote efficiency and economy at the Postal Regulatory Commission,
the Office of Inspector General relies on information provided by PRC
staff and the general public.

Contact OIG to report illegal or wasteful activities or to receive copies
of OIG reports:

                               Telephone:
                           202-789-6817

                                 E-Mail:
                         prc-ig@prc.gov

                                Internet:
                    http://www.prc.gov/oig

                                  Mail:
                      P.O. Box 50264
                    Washington, DC 20091

 IDENTITIES OF WRITERS AND CALLERS ARE PROTECTED TO THE FULL EXTENT
                             OF THE LAW.




                                     8
